    AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

         NATIONAL INSTITUTE OF JUSTICE 

   COOPERATIVE AGREEMENTS AWARDED TO THE 

NATIONAL LAW ENFORCEMENT TELECOMMUNICATIONS

                     SYSTEM

                  PHOENIX, AZ


           U.S. Department of Justice

         Office of the Inspector General

                  Audit Division


          Audit Report GR-60-13-008

                  July 2013

       AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

      NATIONAL INSTITUTE OF JUSTICE COOPERATIVE

      AGREEMENTS AWARDED TO THE NATIONAL LAW

      ENFORCEMENT TELECOMMUNICATIONS SYSTEM

                     PHOENIX, AZ


                         EXECUTIVE SUMMARY


       The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of four cooperative agreements
totaling $2,131,986, awarded by the Office of Justice Programs (OJP),
National Institute of Justice (NIJ) to the National Law Enforcement
Telecommunications System (NLETS), as shown in Exhibit 1.

EXHIBIT 1:	 COOPERATIVE AGREEMENTS AWARDED TO THE
            NATIONAL LAW ENFORCEMENT TELECOMMUNICATIONS
            SYSTEM
                                      PROJECT      PROJECT
   AWARD NUMBER       AWARD DATE     START DATE    END DATE     AWARD AMOUNT
  2007-RG-CX-K003      09/12/07       08/01/07     12/31/09      $ 791,961
  2009-DE-BX-K014      09/23/09       10/01/09     09/30/12          249,777
  2009-IJ-CX-K015      09/23/09       01/01/10     09/30/12          670,705
  2009-SQ-B9-K102      09/21/09       01/01/09     09/30/12          419,543
                                                       Total:    $2,131,986
Source: OJP Grants Management System (GMS)

Background

      OJP’s mission is to increase public safety and improve the fair
administration of justice across the United States through innovative
leadership and programs. OJP seeks to accomplish its mission by
disseminating state-of-the-art knowledge and practices across the United
States by providing grants for the implementation of these crime fighting
strategies. To support this mission, the NIJ provides objective and
independent knowledge and tools to reduce crime and promote justice,
particularly at the state and local levels.

      According to its website, the National Law Enforcement
Telecommunications System (NLETS) is an interstate justice and public
safety network for the exchange of law enforcement, criminal justice, and
public safety-related information. The NLETS is a 501(c)(3) non-profit
organization owned by all of the states and was created over 40 years ago
by the law enforcement agencies of the United States. The user population
is composed of all the United States and territories, all federal agencies with
a law enforcement component, selected international agencies, and a variety
of strategic partners that serve the law enforcement community-all
cooperatively exchanging data. The types of data being exchanged vary
from motor vehicle and drivers' data, to Canadian and INTERPOL databases,
to state criminal history records and driver’s license and corrections images.

      For Cooperative Agreement No. 2007-RG-CX-K003, the NLETS used
the Information-Led Policing program to build the infrastructure to add
geospatial information system (GIS) capability for use by the law
enforcement community and to build a prototype of the proposed system. 1
The proposed system would allow users the ability to access an interactive
map where they can exchange messages, public safety alerts, and other
forms of location-based law enforcement information with all of the relevant
federal, state, and local law enforcement agencies. According to the NLETS,
these powerful “location-intelligence” tools hold significant potential to aid
criminal investigation and intelligence analysis.

      For Cooperative Agreement No. 2009-DE-BX-K014, the NLETS is using
the Technology Research and Development program to enhance its systems
in order to enable interstate image sharing for corrections photos to law
enforcement officials over the NLETS network. With this added functionality,
law enforcement officers will have added identification tools in cases where a
person of interest may not have a driver’s license or their appearance has
changed drastically since his or her license photo was taken.

      For Cooperative Agreement No. 2009-IJ-CX-K015, the NLETS is using
the Technology Research and Development program to expand and enhance
GIS capabilities while building on the foundation established by Cooperative
Agreement No. 2007-RG-CX-K003. In addition, this program is being used
to geocode AMBER alerts for interstate distributions. 2 The National Center
for Missing and Exploited Children (NCMEC) will help test the various
features.

      For Cooperative Agreement No. 2009-SQ-B9-K102, the NLETS is using
the Recovery Act: Law Enforcement Technology Research and Development
program to expand the NLETS’ justice web portal to provide a proactive
capability to alert law enforcement on active warrants and people and

   1
     The term “Geospatial” pertains to the geographic location and characteristics of natural
or constructed features and boundaries on, above, or below the Earth's surface.
   2
     “Geocoding” is the process of converting addresses (such as "1600 Amphitheatre
Parkway, Mountain View, CA") into geographic coordinates (such as latitude 37.423021 and
longitude -122.083739), which can be used to place markers or position the map.


                                              ii
vehicles of interest. The NLETS plans to pilot with the NCMEC to utilize the
proactive alerting capability to identify unregistered sex offenders. For
example, when an individual is pulled over, NCMEC is instantly alerted if the
person is an unregistered sex offender. NCMEC then proceeds to alert the
officer to arrest this person.

Our Audit Approach

      The purpose of the audit was to determine whether costs claimed
under the cooperative agreements were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the cooperative agreements. The objective of the audit was to
review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) cooperative agreements expenditures,
including personnel and indirect costs; (4) budget management and control;
(5) matching; (6) property management; (7) program income; (8) financial
and Progress Reports; (9) cooperative agreement requirements;
(10) program performance and accomplishments; and (11) monitoring of
subgrantees and contractors. We tested compliance with what we consider
to be the most important conditions of the cooperative agreements. Unless
otherwise stated in this report, the criteria we audit against are contained in
the OJP Financial Guide and the award documents.

     We examined the NLETS’ accounting records, Financial and Progress
Reports, and operating policies and procedures and found:

   •	 Cumulative drawdowns exceeded overall expenditures by $2,776 for
      Cooperative Agreement No. 2007-RG-CX-K003; cumulative
      expenditures exceeded drawdowns for all the remaining awards.

   •	 Two transactions totaling $10,381 that were double-counted in the
      NLETS’ accounting records.

   •	 The NLETS did not follow the federal travel policy as required in the
      OJP Financial Guide on 11 occasions.

   •	 Hourly rates charged to the cooperative agreements for payroll
      exceeded the rates in which the NLETS employees are actually paid,
      resulting in questioned costs totaling $80,207.

   •	 The NLETS did not adhere to the 10-percent rule for Cooperative
      Agreement No. 2007-RG-CX-K003; the NLETS was in compliance with
      the rule for all of the other remaining awards.

   •	 Equipment was shown in inventory, shown as federally funded, and
      used as shown in the cooperative agreements.


                                       iii
  •	 Documentation showing the need to award contracts without open and
     free competition was not maintained.

  •	 Contractors were improperly classified as consultants in the

     contractual agreements.


  •	 For Cooperative Agreement No. 2007-RG-CX-K003, we found that all
     of the Federal Financial Reports (FFR) submitted in the last 4 quarters
     were inaccurate. FFR No. 6 was overstated by $11,700, FFR No. 7 was
     overstated by $26,189, FFR No. 8 was overstated by $1,747, and FFR
     No. 9 was overstated by $4,801; the FFRs submitted for the remaining
     three cooperative agreements were generally accurate.

  •	 Categorical Assistance Progress Report (Progress Report) Nos. 2 and
     3 were submitted 223 and 39 days late, respectively, for Cooperative
     Agreement No. 2009-SQ-B9-K102; for the other three cooperative
     agreements, the Progress Reports from the last 2 years were
     submitted in a timely manner.

  •	 For Cooperative Agreement No. 2007-RG-CX-K003, the final FFR was
     submitted, the final Progress Report was submitted, and the final
     drawdowns were in compliance with terms and conditions required by
     the OJP Financial Guide.


      These items are detailed in the Findings and Recommendations section
of the report. Our audit objective, scope, and methodology are discussed in
Appendix I.




                                     iv
                                    Table of Contents


INTRODUCTION ................................................................................ 1

  Background.......................................................................................1

   Cooperative Agreement Programs .....................................................2

   The National Law Enforcement Telecommunications System .................3

  Our Audit Approach............................................................................4

FINDINGS AND RECOMMENDATIONS................................................ 6

 Prior Audits .......................................................................................6

   Single Audit....................................................................................6

   Site Visits and Desk Reviews ............................................................8

 Internal Control Environment ..............................................................8

 Drawdowns .......................................................................................8

 Cooperative Agreement Expenditures ................................................. 11

   Direct Costs ................................................................................. 11

   Payroll ......................................................................................... 12

 Budget Management and Control ....................................................... 13

 Property Management ...................................................................... 14

 Contractors and Consultants ............................................................. 14

   Contractors versus Consultants....................................................... 15

 Cooperative Agreement Reporting ..................................................... 15

   Financial Reporting........................................................................ 16

   Progress Reports........................................................................... 17

   Recovery Act Reports .................................................................... 17

 Program Performance and Accomplishments ....................................... 18

   Program Goals and Objectives ........................................................ 18

   Analysis of Program Performance .................................................... 18

 Closeout Activity.............................................................................. 19

 Conclusion ...................................................................................... 20

 Views of Responsible Officials ............................................................ 21

 Recommendations ........................................................................... 21

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 23

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS............ 25

APPENDIX III – NATIONAL LAW ENFORCEMENT

TELECOMMUNICATIONS SYSTEM’S RESPONSE TO THE DRAFT

REPORT .......................................................................................... 26

APPENDIX IV – OFFICE OF JUSTICE PROGRAMS’ RESPONSE TO THE

DRAFT REPORT ............................................................................... 32

APPENDIX V – OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND 

SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT .......... 35

       AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

      NATIONAL INSTITUTE OF JUSTICE COOPERATIVE

      AGREEMENTS AWARDED TO THE NATIONAL LAW

      ENFORCEMENT TELECOMMUNICATIONS SYSTEM

                     PHOENIX, AZ


                            INTRODUCTION


       The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of four cooperative agreements
totaling $2,131,986, awarded by the Office of Justice Programs (OJP)
National Institute of Justice (NIJ) to the National Law Enforcement
Telecommunications System (NLETS), as shown in Exhibit 1. Cooperative
Agreement No. 2007-RG-CX-K003 was awarded under the Information-Led
Policing program. Cooperative Agreement Nos. 2009-DE-BX-K014 and
2009-IJ-CX-K015 were awarded under the Technology Research and
Development program. Cooperative Agreement No. 2009-SQ-B9-K102 was
awarded under the Recovery Act: Law Enforcement Technology Research
and Development program.

EXHIBIT 1: COOPERATIVE AGREEMENTS AWARDED TO THE
           NATIONAL LAW ENFORCEMENT TELECOMMUNICATIONS
           SYSTEM
                                     PROJECT      PROJECT
   AWARD NUMBER       AWARD DATE    START DATE    END DATE     AWARD AMOUNT
  2007-RG-CX-K003      09/12/07      08/01/07     12/31/09      $ 791,961
  2009-DE-BX-K014      09/23/09      10/01/09     09/30/12          249,777
  2009-IJ-CX-K015      09/23/09      01/01/10     09/30/12          670,705
  2009-SQ-B9-K102      09/21/09      01/01/09     09/30/12          419,543
                                                      Total:    $2,131,986
Source: OJP Grants Management System (GMS)

Background

      OJP’s mission is to increase public safety and improve the fair
administration of justice across the United States through innovative
leadership and programs. OJP seeks to accomplish its mission by
disseminating state-of-the-art knowledge and practices across America by
providing grants for the implementation of these crime fighting strategies.
To support this mission, the NIJ provides objective and independent
knowledge and tools to reduce crime and promote justice, particularly at the
state and local levels.
       The American Recovery and Reinvestment Act of 2009 (Recovery Act)
was created to preserve and create jobs and promote economic recovery; to
assist those most impacted by the recession; to provide investments needed
to increase economic efficiency by spurring technological advances in science
and health; to invest in transportation, environmental protection, and other
infrastructure that will provide long-term economic benefits; and to stabilize
state and local government budgets, in order to minimize and avoid
reductions in essential services and counterproductive state and local tax
increases.

Cooperative Agreement Programs

       For the Information-Led Policing program, NIJ seeks projects that
improve on existing information and data technologies or develop new and
innovative solutions for criminal justice application. NIJ is specifically
interested in concepts for development in one of the following areas related
to information-led policing: (1) Identity matching and entity resolution,
(2) sharing positive identification information (such as photos, fingerprints,
etc.), (3) implementing Global Justice XML Data Model (GJXDM) based
messaging for law enforcement, (4) data analysis tools for multidiscipline
data sharing systems, and (5) alert system mechanisms to notify law
enforcement agencies of “hits.”

       For the Technology Research and Development program, NIJ seeks
research and development of technologies and devices for law enforcement
and corrections application providing: (1) improved means to confirm an
individual's identity in real time from surveillance video or through
multijurisdictional database queries; (2) improved situational awareness
through automated video surveillance technology capable of identifying and,
ideally, predicting criminal behavior; (3) improved means to locate and track
cooperative or non-cooperative individuals within and without structures in
both urban and rural environments, with particular emphasis on the ability
to locate and track offenders released into the community in real time; and
(4) improved data analysis tools, including, but not limited to, the areas of
general analysis, spatial and temporal analysis and visualization that
examine data in new and unique ways, that extend current capabilities of
exploring crime-related databases or the operationalization of crime
theories.

      For the Recovery Act: Law Enforcement Technology Research and
Development program, NIJ seeks to fund projects via a limited competition
among invited applicants that support the goals of the Recovery Act and the
purposes of the Byrne Justice Assistance Grant (JAG) Program by helping to
increase the economic efficiency and effectiveness of law enforcement


                                       2

activities. Project areas will address among other law enforcement
technology requirements and priorities officer safety, public safety,
communications (including interoperable communications) and
decision-making, information sharing, electronic crime, less lethal devices,
and concealed weapons detection.

The National Law Enforcement Telecommunications System

       According to its website, the National Law Enforcement
Telecommunications System (NLETS) is an interstate justice and public
safety network for the exchange of law enforcement, criminal justice, and
public safety-related information. The NLETS is a 501(c)(3) nonprofit
organization owned by all of the states and was created over 40 years ago
by the law enforcement agencies of the United States. The user population
is composed of all the United States and territories, all federal agencies with
a law enforcement component, selected international agencies, and a variety
of strategic partners that serve the law enforcement community all
cooperatively exchanging data. The types of data being exchanged vary
from motor vehicle and drivers' data, to Canadian and INTERPOL databases,
to state criminal history records and driver’s license and corrections images.

      For Cooperative Agreement No. 2007-RG-CX-K003, the NLETS used
the Information-Led Policing program to build the infrastructure to add
geospatial information system (GIS) capability for use by the law
enforcement community and to build a prototype of the proposed system. 1
The proposed system would allow users the ability to access an interactive
map where they can exchange messages, public safety alerts, and other
forms of location-based law enforcement information with all of the relevant
federal, state, and local law enforcement agencies. According to the NLETS,
these powerful “location-intelligence” tools hold significant potential to aid
criminal investigation and intelligence analysis.

      For Cooperative Agreement No. 2009-DE-BX-K014, the NLETS is using
the Technology Research and Development program to enhance its systems
in order to enable interstate image sharing for corrections photos to law
enforcement officials over the NLETS network. With this added functionality,
law enforcement officers will have added identification tools in cases where a
person of interest may not have a driver’s license or their appearance has
changed drastically since his or her license photo was taken.



   1
     The term “Geospatial” pertains to the geographic location and characteristics of natural
or constructed features and boundaries on, above, or below the Earth's surface.



                                             3

      For Cooperative Agreement No. 2009-IJ-CX-K015, the NLETS is using
the Technology Research and Development program to expand and enhance
GIS capabilities while building on the foundation established by Cooperative
Agreement No. 2007-RG-CX-K003. In addition, this program is being used
to geocode AMBER alerts for interstate distributions. 2 The National Center
for Missing and Exploited Children (NCMEC) will help test the various
features.

      For Cooperative Agreement No. 2009-SQ-B9-K102, the NLETS is using
the Recovery Act: Law Enforcement Technology Research and Development
program to expand the NLETS justice web portal to provide a proactive
capability to alert law enforcement on active warrants and people and
vehicles of interest. With this cooperative agreement, NLETS plans to pilot
with the NCMEC to utilize the proactive alerting capability to identify
unregistered sex offenders. For example, when an individual is pulled over,
NCMEC is instantly alerted if the person is an unregistered sex
offender. NCMEC then proceeds to alert the officer to arrest this person.

Our Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the cooperative agreements. Unless otherwise
stated in our report, the criteria we audited against are contained in the
OJP Financial Guide and the cooperative agreement award documents.
We tested the NLETS’:

   •	 Accounting and Internal Control Environment to determine
      whether the grantee had sufficient accounting and internal controls in
      place for the processing and payment of funds and controls were
      adequate to safeguard cooperative agreements funds and ensure
      compliance with the terms and conditions of the cooperative
      agreements;

   •	 Cooperative Agreement Drawdowns to determine whether
      cooperative agreement drawdowns were adequately supported and if
      the NLETS was managing cooperative agreements receipts in
      accordance with federal requirements;

   •	 Cooperative Agreement Expenditures to determine the accuracy
      and allowability of costs charged to the cooperative agreements;

   2
     “Geocoding” is the process of converting addresses (such as "1600 Amphitheatre
Parkway, Mountain View, CA") into geographic coordinates (such as latitude 37.423021 and
longitude -122.083739), which can be used to place markers or position the map.


                                           4

  •	 Budget Management and Control to determine the NLETS’
     compliance with the costs approved in the cooperative agreements
     budgets;

  •	 Property Management to determine the existence of capital property
     purchased using cooperative agreements funds as well as reasonable
     assurance that the property was used properly in accordance with
     cooperative agreements requirements;

  •	 Contractors to determine if contractors and consultants were
     procured and compensated in adherence with applicable guidelines;

  •	 Federal Financial Reports (FFRs) and Categorical Assistance
     Progress Reports (Progress Reports) to determine if the required
     FFRs and Progress Reports were submitted in a timely manner and
     accurately reflect cooperative agreements activity;

  •	 Accomplishment of Cooperative Agreement Requirements and
     Objectives to determine if the cooperative agreements objectives
     have been met or if the NLETS is capable of meeting the cooperative
     agreement’s objectives; and

  •	 Closeout Activity to determine that appropriate action has been
     taken to administratively close cooperative agreements that have
     reached their end date.

      We also performed limited work and confirmed that the NLETS was not
required to contribute any local matching funds, did not receive
reimbursement for indirect costs, did not have any sub-grantees, and did not
generate any program income. Therefore, we did not perform testing in
these areas.

     The findings and recommendations are detailed in the Findings and
Recommendations section of this report. Our audit objective, scope, and
methodology appear in Appendix I.




                                     5

               FINDINGS AND RECOMMENDATIONS

     Overall our work did not identify any indication that NLETS was
     not on track to complete the objectives of the cooperative
     agreements. However, we determined that cumulative
     drawdowns exceeded overall expenditures by $2,776 and the
     NLETS did not adhere to the 10-percent rule for Cooperative
     Agreement No. 2007-RG-CX-K003. We also identified two
     transactions totaling $10,381 that were double-counted in the
     NLETS’ accounting records. The NLETS did not have written
     travel policies pertaining to rates and on 11 occasions did not
     fully comply with the federal travel policy as required in the OJP
     Financial Guide. Hourly payroll rates charged to the cooperative
     agreements exceeded the rates in which the NLETS’ employees
     are actually paid resulting in questioned costs of $80,207.
     Contractors were improperly classified as consultants in the
     contractual agreements and the NLETS did not maintain
     documentation showing the need to award contracts without
     open and free competition. For Cooperative Agreement No.
     2007-RG-CX-K003, we found that all of the FFRs submitted in
     the last 4 quarters were inaccurate. Progress Report Nos. 2 and
     3 were submitted 223 and 39 days late, respectively, for
     Cooperative Agreement No. 2009-SQ-B9-K102.


Prior Audits

Single Audit

      The Office of Management and Budget (OMB) Circular A-133 requires
that non-federal entities that expend $500,000 or more per year in federal
awards have a single audit performed annually. We determined that the
three most recent single audits were for fiscal years (FY) 2009, 2010, and
2011. After review of these single audits, we determined that for FY 2009,
the NLETS was issued an unqualified opinion for both its financial statements
and its federal awards. For FY 2010, the NLETS was issued an unqualified
opinion for its financial statements and a qualified opinion for its federal
awards. The NLETS was given a qualified opinion for its federal awards due
to questioned costs of $49,935. This finding related to all four of the
cooperative agreements included in our audit. The auditors found that the
NLETS failed to reconcile payroll and related expenditures to the amounts
recorded in the general ledger resulting in the over reporting of federal
expenditures in the quarterly financial status reports (FSRs)(SF-269). The
auditors stated that the expenses included in the quarterly reports were


                                      6

overstated by $49,935 which was the amount of questioned costs. They
believed that this error was caused due to the “misunderstanding of
OMB Circular No. A-122, Cost Principles for Non-Profit Organizations,
management of NLETS believed that estimated payroll costs could be used
for quarterly SF-269 reporting purposes.” The auditors recommended that
that NLETS report its allowable costs, payroll and related expenses at the
actual rate for the services performed for each program rather than the
estimated amount. In response to the finding, the NLETS stated that they
“began recording payroll and related expenses at actual rates paid in
March 2011 and will continue to do so in the future. Subsequent quarterly
SF-269 reporting up through the end of 2011 will reflect appropriate changes
to bring inception to date billing to actual levels and in agreement with the
general ledger."

       During fieldwork, we spoke with an official at the NLETS concerning
this single audit finding. From our interview, we learned that the payroll
amounts in the general ledger were inaccurate as well. Officials at the
NLETS believed that the previous Director of Finance created a "loaded
hourly rate" to be charged for each employee to the cooperative
agreement. The current staff believes that this rate was composed of the
employee’s regular hourly rate plus all fringe combined into one. Since the
single audit finding stated that the expenses of employees working on
federal programs should be charged at rates consistent to that of their actual
compensation, the staff made a series of adjustments in the ledgers for
Cooperative Agreement Nos. 2009-DE-BX-K014, 2009-IJ-CX-K015, and
2009-SQ-B9-K102 to ensure that the correct rate was charged. The NLETS
told us that adjustments could not be made to Cooperative Agreement
No. 2007-RG-CX-K003; therefore, the amount of omission is unknown.
Since this finding would have an effect on our audit, we expanded testing on
the payroll portion of our audit. The results of our testing can be found in
the “Cooperative Agreement Expenditures - Payroll” section of this report.

      For FY 2011, the NLETS was issued an unqualified opinion for both its
financial statements and federal awards although there was one finding
concerning the NLETS’ financial statements. The finding pertained to the
Executive Director of the NLETS’ ability to withdraw and/or transfer funds
between the NLETS’ investment accounts without any additional
authorization from another individual in the organization. To prevent
misappropriation of funds, the auditors recommended that two or more
separate authorizations should be required. In response, the NLETS claimed
to have instituted controls to prevent this. This finding did not relate to our
audit, so no further testing on this matter was performed.




                                       7

Site Visits and Desk Reviews

       We also noted that the NIJ Program Manager performed a site visit in
September 2010 pertaining to Cooperative Agreement Nos.
2009-DE-BX-K014, 2009-IJ-CX-K015, and 2009-SQ-B9-K102. The purpose
of the site visit was “to ascertain progress under the awards as well as any
outstanding issues and/or problems since the last face-to-face meeting in
regards to the operations of the NIJ awards with the NLETS”. According to
the site visit report, the NIJ Program Manager stated that "the site visit was
very positive. The grantee provided all of the materials requested and was
able to answer questions regarding the program managers concerns.
Meetings with the NLETS staff were very productive and informative as to
the oversight of the awards currently open. The site visit was productive in
answering questions raised by both the program manager and the grantee."

      In addition to the site visit, there were two desk reviews performed for
Cooperative Agreement No. 2007-RG-CX-K003 and three desk reviews each
performed for Cooperative Agreement Nos. 2009-DE-BX-K014,
2009-IJ-CX-K015, and 2009-SQ-B9-K102. We examined the desk reviews
and did not find any information related to our audit.

Internal Control Environment

      We reviewed the NLETS’ internal control environment, including
procurement, receiving, payment, and payroll procedures to determine
compliance with the terms and conditions of the cooperative agreements and
to assess risk. In addition, we performed a limited review of the NLETS’
financial management system. We determined that the NLETS had
procedures that provided for segregation of duties, transaction traceability,
and system security. Based on our review of the NLETS’ policies and
procedures and interviews with the NLETS’ personnel, we did not identify
any internal control issues that would affect compliance with applicable
requirements of the cooperative agreement programs.

Drawdowns

      The OJP Financial Guide states that "Recipient organizations should
request funds based upon immediate disbursement/reimbursement
requirements.... Recipients should time their drawdown requests to ensure
that federal cash on hand is the minimum needed for
disbursements/reimbursements to be made immediately or within 10 days."
We determined that the NLETS requested drawdowns on a reimbursement
basis, maintained supporting documentation for each drawdown, and
received funds drawn down as an electronic deposit into their bank account.


                                      8

      For each cooperative agreement, we evaluated whether the total
actual expenditures recorded in the general ledgers were equal to or greater
than the cumulative drawdowns as reported by the awarding agency. As
shown in Exhibit 2, for Cooperative Agreement No. 2007-RG-CX-K003, we
found that cumulative drawdowns exceeded the overall expenditures by
$2,776. This was partially caused by the two transactions totaling
$10,381 that we found to be duplicated in the NLETS’ financial records (see
the “Cooperative Agreement Expenditures” section of this report). We
recommend that OJP ensure that the NLETS implements policies in order to
accurately drawdown funds as needed.




                                     9

EXHIBIT 2: DRAWDOWNS VERSUS EXPENDITURES 3
  DATE OF                     ACTUAL EXPENDITURES DIFFERENCE BETWEEN AMOUNT
 DRAWDOWN       AMOUNT DRAWN   FOR THE DRAWDOWN   DRAWN DOWN AND THE ACTUAL
  PER OJP       DOWN PER OJP         PERIOD              EXPENDITURES
                 COOPERATIVE AGREEMENT NO. 2007-RG-CX-K003
 11/14/2007       $     700        $      925              $      225
 01/02/2008             535             4,601                   4,066
 02/01/2008           3,494               733                 (2,761)
 03/17/2008           5,696             1,182                 (4,514)
 04/01/2008          11,612               165               (11,447)
 04/14/2008           7,133               627                 (6,506)
 06/02/2008          11,991             3,481                 (8,510)
 06/16/2008          72,961             1,436               (71,525)
 07/22/2008          10,407             2,413                 (7,994)
 08/01/2008          21,939             1,095               (20,844)
 08/21/2008           3,533             2,217                 (1,316)
                     17,900               -                 (17,900)
 09/23/2008          35,165             4,852               (30,314)
 10/01/2008          17,040             1,604               (15,436)
 11/03/2008          24,822             3,671               (21,151)
 12/01/2008          33,838             5,713               (28,125)
 02/17/2009          32,193          307,144                 274,951
 02/26/2009          20,486             4,200               (16,286)
 03/16/2009          21,315           68,866                   47,551
 04/01/2009          47,692           12,987                (34,706)
 05/12/2009          22,151             9,064               (13,087)
 06/15/2009          71,622           62,460                  (9,163)
 07/06/2009          13,023           15,844                    2,821
 08/03/2009           6,994           14,021                    7,028
 09/10/2009          13,860             7,187                 (6,673)
 11/06/2009           7,920             7,153                   (767)
 12/16/2009           8,371           13,116                    4,745
 03/04/2010         247,569          227,381                (20,189)
 07/16/2010            -                5,050                   5,050
   TOTAL          $791,961         $789,185                $(2,776)
Source: OJP Grants Management System (GMS) and the NLETS

     For Cooperative Agreement Nos. 2009-DE-BX-K014, 2009-IJ-CX-K015,
and 2009-SQ-B9-K102, we found that the overall expenditures exceeded
cumulative drawdowns.




   3
    Differences in totals throughout the report are due to rounding (the sum of individual
numbers prior to rounding may differ from the sum of the individual numbers rounded).


                                            10

Cooperative Agreement Expenditures

Direct Costs

       According to the OJP Financial Guide, all financial records, supporting
documents, statistical records, and all other records pertinent to the award
shall be retained by each organization for at least 3 years following
notification by the awarding agency that the cooperative agreement has
been programmatically and fiscally closed or for at least 3 years following
the closure of its single audit report covering the entire award period,
whichever is later.

       For Cooperative Agreement Nos. 2007-RG-CX-K003,
2009-DE-BX-K014, 2009-IJ-CX-K015, and 2009-SQ-B9-K102, we reviewed a
total of 120 transactions (30 for each of the cooperative agreements) to
determine if costs were adequately supported, the costs were reasonable,
and the costs were approved and allowable under the terms and conditions
of the cooperative agreement.

      For Cooperative Agreement No. 2007-RG-CX-K003, as shown in
Exhibit 3, we found two transactions totaling $10,381 that were
double-counted in the NLETS’ accounting records. Therefore, we have
questioned these expenditures. We recommend that OJP remedy the
$10,381 in questioned costs related to the two transactions.

EXHIBIT 3: QUESTIONED TRANSACTIONS
          TRANSACTION          COST                           STATUS
               COOPERATIVE AGREEMENT NO. 2007-RG-CX-K003
           AT&T Datacomm                $ 8,005              Duplicate
           AT&T Datacomm                  2,376              Duplicate
               Total                    $10,381
Source: The NLETS

       The OJP Financial Guide states "Recipients may follow their own
established travel rates. However, the Office of the Chief Financial Officer
(OCFO) reserves the right to determine the reasonableness of those rates.
If a recipient does not have a written travel policy, the recipient must abide
by the federal travel policy." After we examined the NLETS’ procedures
manuals and had discussions with individuals at the NLETS, we determined
that the NLETS does not have a written travel policy that pertains to rates,
therefore federal travel policy must be followed. Federal travel policy is
administered using rates provided by the General Services Administration
(GSA) for travel within the continental United States. GSA provides per
diem rates that specify the maximum allowable nightly hotel rates and the


                                      11

maximum allowable rates for daily meals and incidental expenses. Per GSA
guidelines, for meals and incidental expenses, the first and last calendar day
of travel is calculated at 75 percent of the normal rate. In reviewing
transactions related to travel, we compared the GSA rates to the actual rates
for all travel transactions in order to find discrepancies.

      For Cooperative Agreement Nos. 2007-RG-CX-K003, 2009-IJ-CX-K015,
and 2009-SQ-B9-K102, based on our on-site review of transactions, we
found that on 11 occasions, the NLETS did not follow GSA rules for travel.
We recommend that OJP ensure that the NLETS implements travel policies
that adhere to OJP Financial Guide rules.

      For Cooperative Agreement No. 2009-DE-BX-K014, we found that all
30 transactions were adequately supported, the costs were reasonable, and
the costs were approved and allowable under the terms and conditions of
the cooperative agreement.

      For Cooperative Agreement Nos. 2007-RG-CX-K003, 2009-IJ-CX-K015,
and 2009-SQ-B9-K102, the remaining 28 transactions, 26 transactions, and
26 transactions respectively, were adequately supported, the costs were
reasonable, and the costs were approved and allowable under the terms and
conditions of the cooperative agreements.

Payroll

       As mentioned previously in our analysis of the NLETS’ 2010 single
audit, the auditors found that the NLETS reported inaccurate payroll rates in
its financial reports. When speaking with an official from the NLETS, we
determined that there were also inaccurate payroll rates in their accounting
records and that adjustments were made to Cooperative Agreement Nos.
2009-DE-BX-K014, 2009-IJ-CX-K015, and 2009-SQ-B9-K102 to ensure that
the correct amounts were charged to the cooperative agreements. We were
able to confirm that these adjustments were made. Since adjustments could
not be made to Cooperative Agreement No. 2007-RG-CX-K003, we
performed expanded testing on payroll for this cooperative agreement.

      For Cooperative Agreement No. 2007-RG-CX-K003, we judgmentally
selected one pay period during the cooperative agreement period to
determine if labor charges were computed correctly, properly authorized,
accurately recorded, and properly allocated to the cooperative
agreement. In addition, as shown in Exhibit 4, we examined time sheets
and compared the employee’s normal hourly rate to that of the rate charged
to the cooperative agreement to determine if the proper rate was charged.
We found that for all employees tested, the rate charged to the cooperative


                                     12

agreement exceeded the employee’s actual hourly rate. Since the rates
charged to the cooperative agreements exceeded the actual rates and the
NLETS could not provide sufficient documentation as to how the rates
charged to the cooperative agreement were derived, we have questioned the
entire $80,207 charged to payroll for this cooperative agreement. We
recommend that OJP remedy the $80,207 in questioned costs related to
unallowable payroll expenditures.

EXHIBIT 4: VERIFICATION OF PAYROLL RATES
                            HOURLY RATE CHARGED TO             EMPLOYEES ACTUAL
                  4
       EMPLOYEE             COOPERATIVE AGREEMENT                HOURLY RATE
           1                         $40                             $34
           2                          92                              78
           3                          73                              46
           4                          60                              44
           5                          66                              45
           6                          92                              63
           7                          73                              44
Source: The NLETS

Budget Management and Control

      According to the OJP Financial Guide, movement of dollars between
approved budget categories without a Grant Adjustment Notice (GAN) is
allowable up to 10 percent of the total award amount for awards greater
than $100,000. As noted in Exhibit 1, the NLETS received four awards, all of
which were greater than $100,000. For all four cooperative agreements, we
compared the approved budgets for these awards to the actual expenditures
as shown in the NLETS’s accounting records.

       As shown in Exhibit 5, for Cooperative Agreement No. 2007-RG-CX­
K003, we determined that the NLETS spent in excess of the budgeted
amount in five of the seven approved budget categories, totaling $340,679.
The 10-percent threshold for this cooperative agreement was $79,196. The
difference between the amount over spent and the 10-percent threshold is
$261,483. The NLETS did not adhere to the 10-percent rule. We
recommend that OJP ensure that the NLETS implements procedures to
ensure compliance with the 10-percent rule.




   4
     Employee names have been replaced with assigned numbers to protect the identity of
these individuals.


                                          13

EXHIBIT 5: BUDGET MANAGEMENT AND CONTROL FOR
           COOPERATIVE AGREEMENTS 2007-RG-CX-K003
                      BUDGET CATEGORY                        AMOUNT OVER
 BUDGET CATEGORY          AMOUNT              ACTUAL COSTS     BUDGET
Personnel                 $ 63,300                $ 80,207    $ 16,907
Fringe Benefits              19,623                 24,866        5,243
Travel                       30,396                44,898        14,502
Equipment                    50,000               353,775       303,775
Supplies                      1,000                 1,252           252
Contractual                 627,142               284,188      (342,955)
Other                           500                     -          (500)
TOTAL DIRECT COSTS        $791,961              $789,185      $340,679
Indirect Costs                      -                   -        N/A
TOTAL AMOUNT                $791,961            $789,185      $340,679
               10-Percent Threshold for 2007-RG-CX-K003:      $ 79,196
            Difference Between Over Budget Amounts and
                                                              $261,483
                                   Ten Percent Threshold:
Source: OJP Grants Management System (GMS) and the NLETS

     For Cooperative Agreement Nos. 2009-DE-BX-K014, 2009-IJ-CX-K015,
2009-SQ-B9-K102, the NLETS was in compliance with the 10-percent rule.

Property Management

       The NLETS’ approved award budget for Cooperative Agreement Nos.
2007-RG-CX-K003, 2009-IJ-CX-K015, and 2009-SQ-B9-K102 included
expenditures for equipment. The criteria that officials at the NLETS use to
define equipment purchase as accountable property is any purchase over
$2,000 and a useful life of more than 1 year. We reviewed the list of
equipment paid with cooperative agreement funds and we judgmentally
selected seven items to review. All seven of the items we selected were
shown in inventory, shown as federally funded, and used as shown in the
cooperative agreements. We were able to physically verify four of the seven
items but the remaining three items were located at the NLETS' server
offices in Kentucky. Since we could not physically verify these items,
officials at the NLETS were able to remotely locate the equipment, show that
it was in use, and that it was shown in inventory. We did not note any
issues with our verification of accountable property.

Contractors and Consultants

       The 2006 and 2009 OJP Financial Guides state "Adequate Competition.
All procurement transactions, whether negotiated or competitively bid and
without regard to dollar value, shall be conducted in a manner so as to


                                        14

provide maximum open and free competition. All sole-source procurements
in excess of $100,000 must receive prior approval from the awarding
agency." The NLETS was required to have open and free competition for all
contracts regardless of dollar value. In our analysis of the contractual
agreements, we found a total of 21 contractual agreements that were not
awarded with free and open competition. Based on our discussions with
officials at the NLETS, we determined that all of the contracts were awarded
on a sole source basis without open and free competition due to the
technical nature associated with the cooperative agreement programs.
According to the NLETS, there are few individual contractors with the
expertise and experience in developing these law enforcement systems. In
our judgment, in consideration of the technical nature of the cooperative
agreements, the use of a sole source procurement could be an important
consideration for accomplishing required tasks since ongoing projects could
potentially be disrupted with a change in existing technical knowledge and
approach. However, the NLETS could not provide any documentation
showing that the item or service is available only from a sole source or
reflecting that competition was considered inadequate. We recommend that
OJP ensure that the NLETS adopts policies in order to document and
maintain information concerning the need to award contracts without open
and free competition.

Contractors versus Consultants

      In our judgment, consultant services are generally acquired to obtain
information, advice, opinions, alternatives, conclusions, recommendations,
or direct assistance, such as studies, analyses, evaluations, liaison with
government officials, or other forms of representation.

      In reviewing all of the contractual agreements relating to the
cooperative agreements, we found that many of the NLETS’ contractors were
incorrectly classified as consultants. We found that many of the contracts
were titled “Consultant Agreements” and throughout these documents, the
contractors were referred to as “consultants” when in reality, the contractors
were not to provide consulting services. When speaking with an official at
the NLETS, we learned that this was due to a misclassification. In effect,
many of the contracts were improperly titled. We recommend that OJP
ensure that the NLETS adopts policies to ensure that contractors are
accurately classified in its contractual agreements.

Cooperative Agreement Reporting

     The OJP Financial Guide states that the recipients of cooperative
agreements must submit FFRs and Progress Reports. FFRs provide


                                     15

information on monies spent and the unobligated amounts remaining in the
cooperative agreement. Progress Reports provide information on the status
of cooperative agreement funded activities and other pertinent information.
In addition, since Cooperative Agreement No. 2009-SQ-B9-K102 involves
the awarding of Recovery Act funds, the recipient is also required to submit
Recovery Act reports for this cooperative agreement.

Financial Reporting

      According to the OJP Financial Guide, prior to October 1, 2009,
Federal Status Reports were to be submitted within 45 days of the end of
the calendar quarter. As of October 1, 2009, recipients are required to
submit quarterly Federal Financial Reports (FFR) within 30 days of the end of
the calendar quarter. 5 We reviewed the four most recent FFRs for each
cooperative agreement and determined that financial reporting had been
submitted in a timely manner.

      In addition, we also reviewed financial reporting for the last 4 quarters
for accuracy. In our analysis, we compared the expenditures reported in the
FFRs to the actual amounts found in the NLETS’ accounting records. As
shown in Exhibit 6, for Cooperative Agreement No. 2007-RG-CX-K003, we
found that all of the FFRs submitted in the last 4 quarters were inaccurate.
FFR No. 6 was overstated by $11,700, FFR No. 7 was overstated by
$26,189, FFR No. 8 was overstated by $1,747, and FFR No. 9 was
overstated by $4,801. We recommend that OJP ensure that the NLETS
implements procedures to ensure that the information submitted in the FFRs
is accurate.

EXHIBIT 6: FEDERAL FINANCIAL REPORT EXPENDITURE ACCURACY
                                                             DIFFERENCE BETWEEN
                                               EXPENDITURES       REPORTS &
REPORT          REPORT PERIOD    EXPENDITURES PER ACCOUNTING     ACCOUNTING
 NO.           FROM - TO DATES    PER REPORT     RECORDS           RECORDS
                   COOPERATIVE AGREEMENT NO. 2007-RG-CX-K003
   6         01/01/09 - 03/31/09   $121,686       $109,986      $(11,700)
   7         04/01/09 - 06/30/09    112,727         86,538       (26,189)
   8         07/01/09 - 09/30/09     24,808         23,061        (1,747)
   9         10/01/09 - 12/31/09    251,498        246,697        (4,801)
Source: OJP Grants Management System (GMS) and the NLETS




   5
       For report consistency, we use the acronym “FFR” to refer to both types of reports.


                                              16

     For Cooperative Agreement Nos. 2009-DE-BX-K014, 2009-IJ-CX-K015,
and 2009-SQ-B9-K102, we found that for the last 4 quarters of FFRs
submitted, the actual expenditures were either equal to or exceeded the
amounts reported.

Progress Reports

      According to the OJP Financial Guide, Progress Reports are due
semiannually on January 30 and July 30 for the life of the award. To verify
the timely submission of Progress Reports, we reviewed the last four
Progress Reports submitted for each of the cooperative agreements to
determine if the report had been submitted as required by the OJP Financial
Guide. As shown in Exhibit 7, for Cooperative Agreement
No. 2009-SQ-B9-K102, we determined that Progress Reports Nos. 2 and
3 were submitted 223 and 39 days late, respectively.

EXHIBIT 7: CATEGORICAL ASSISTANCE PROGRESS REPORT HISTORY
                        REPORT PERIOD                                    DAYS
    REPORT NO.         FROM - TO DATES       DUE DATE   DATE SUBMITTED   LATE
                 COOPERATIVE AGREEMENT       NO. 2009-SQ-B9-K102
        2            01/01/10 - 06/30/10     07/30/10      03/10/11      223
        3            07/01/10 - 12/31/10     01/30/11      03/10/11       39
        4            01/01/11 - 06/30/11     07/30/11      07/27/11       0
        5            07/01/11 - 12/31/11     01/30/12     01/30/12        0
Source: OJP Grants Management System (GMS)

      To determine an exact cause, we contacted officials from the
NLETS. We learned that for Progress Report No. 2, the quarterly Recovery
Act reports were mistakenly submitted to GMS in lieu of the required
semi-annual Progress Reports. Therefore, the corrected semi-annual reports
were submitted on March 10, 2011, 223 days late. For Progress Report
No. 3, we were told that there was an issue with GMS that affected the
NLETS’ ability to upload the report. Progress Reports Nos. 4 and 5 were
submitted in a timely manner. We recommend that OJP ensure that the
NLETS implements procedures to ensure that the Progress Reports are
submitted in a timely manner.

     For Cooperative Agreement Nos. 2007-RG-CX-K003,
2009-DE-BX-K014, and 2009-IJ-CX-K015, all four Progress Reports
submitted over the last 2 years were submitted in a timely manner.

Recovery Act Reports

      In order to determine if the NLETS complied with Recovery Act
reporting requirements for Cooperative Agreement No. 2009-SQ-B9-K102,


                                      17

we obtained the most recent recovery act report. We determined that the
report accurately reported expenditures and accurately reported jobs
created.

Program Performance and Accomplishments

Program Goals and Objectives

      As mentioned previously, the goals and objectives for Cooperative
Agreement No. 2007-RG-CX-K003, were to build the infrastructure to
support GIS capability to the law enforcement community and to build a
prototype of the proposed system. The proposed system would allow for
better alerting, operational/situational awareness, resource allocation,
visualization and insight, and an advanced analytical framework.

      For Cooperative Agreement No. 2009-DE-BX-K014, the goals and
objectives were to enhance the systems in order to enable interstate image
sharing for corrections photos to law enforcement officials over the NLETS
network. This will enable nearly 1 million users of NLETS to access photos of
inmates that are currently under arrest at a state and local prison.

       For Cooperative Agreement No. 2009-IJ-CX-K015, the goals and
objectives were to expand and enhance GIS capabilities while building on the
foundation established by Cooperative Agreement No. 2007-RG-CX­
K003. In addition, this cooperative agreement program was used in
conjunction with NCMEC to geocode AMBER alerts for interstate
distributions.

       For Cooperative Agreement No. 2009-SQ-B9-K102, the goals and
objectives were to expand the NLETS justice web portal to provide a
proactive alerting capability to alert law enforcement on active warrants and
people and vehicles of interest. With this cooperative agreement, NLETS
plans to pilot with the NCMEC to utilize the proactive alerting capability to
identify unregistered sex offenders.

Analysis of Program Performance

       In order to determine if the cooperative agreements have effectively
met end user needs, we administered three questionnaires to agencies that
have collaborated with the NLETS. We received a response from two of the
agencies. From the feedback presented by these questionnaires, the
collaborators believed that these projects have allowed law enforcement
officers to protect citizens and themselves in a more effective manner. In
addition, one respondent stated that their state would never have been able


                                     18

to provide the capabilities created by the cooperative agreements without
being able to collaborate with the NLETS. Further, the respondent stated
“funding a single entity for projects that can benefit ‘all’ criminal justice
agencies in the nation is the smart and fiscally responsible way to do
business.”

      Due to the technical nature associated with the cooperative
agreements, we could not determine if all of the specified goals and
objectives have been or are in process of being accomplished. However,
based on discussions with the NLETS’ management, feedback from agencies
who have collaborated with the NLETS, documentation of the success
stories, and review of the various update reports, we did not find anything
that would lead us to believe that the NLETS is not on track to accomplish
the goals and objectives specified for Cooperative Agreement Nos.
2009-DE-BX-K014, 2009-IJ-CX-K015, 2009-SQ-B9-K102. For the only
cooperative agreement that had ended as of the start of field work,
Cooperative Agreement No. 2007-RG-CX-K003, we did not find anything that
would lead us to believe that the goals and objectives of the cooperative
agreement program were not accomplished.

Closeout Activity

       According to the OJP Financial Guide, award recipients have 90 days
after the end date of the award to close out the award. For the final
closeout package, award recipients are to perform a cash reconciliation,
submit the final FFR, and submit the final Progress Report to the granting
agency. In addition, the award recipient is required to perform a final
drawdown before the end of the award period.

       As shown in Exhibit 8, only Cooperative Agreement No.
2007-RG-CX-K003 had reached its end date at the time of this audit. We
verified that the final FFR was submitted, the final Progress Report was
submitted, and that final drawdowns were in compliance with the terms and
conditions required by the OJP Financial Guide.

EXHIBIT 8: CLOSEOUT STATUS OF COOPERATIVE AGREEMENTS
            AWARDED TO THE NATIONAL LAW ENFORCEMENT
            TELECOMMUNICATIONS SYSTEM
                                            REQUIRED
                    PROJECT                  PROJECT    CLOSEOUT STATUS PER OJP
                     START     PROJECT      CLOSEOUT    COOPERATIVE AGREEMENTS
  AWARD NUMBER        DATE     END DATE       DATE        MANAGEMENT SYSTEM
 2007-RG-CX-K003    08/01/07   12/31/09    03/31/2010    Approved Final Archived
Source: OJP Grants Management System (GMS)




                                      19
Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the cooperative agreements were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
terms and conditions of the cooperative agreements, and to determine
program performance and accomplishments. We performed detailed
transaction testing and examined the NLETS’ accounting records, budget
documents, financial and Progress Reports, and operating policies and
procedures. Specifically, we found that:

  •	 Cumulative drawdowns exceeded overall expenditures by $2,776 for
     Cooperative Agreement No. 2007-RG-CX-K003; cumulative
     expenditures exceeded drawdowns for all the remaining awards.

  •	 Two unallowable transactions totaling $10,381 that were

     double-counted in the NLETS’ accounting records.


  •	 The NLETS did not follow the federal travel policy as required in the
     OJP Financial Guide on 11 occasions.

  •	 Hourly rates charged to the cooperative agreements for payroll
     exceeded the rates in which the NLETS employees are actually paid,
     resulting in questioned costs totaling $80,207.

  •	 The NLETS did not adhere to the 10-percent rule for Cooperative
     Agreement No. 2007-RG-CX-K003; the NLETS was in compliance with
     the rule for all of the other remaining awards.

  •	 Equipment was shown in inventory, shown as federally funded, and
     used as shown in the cooperative agreements.

  •	 Documentation showing the need to award contracts without open and
     free competition was not maintained.

  •	 Contractors were improperly classified as consultants in the

     contractual agreements.


  •	 For Cooperative Agreement No. 2007-RG-CX-K003, we found that all
     of the FFRs submitted in the last 4 quarters were inaccurate. FFR No.
     6 was overstated by $11,700, FFR No. 7 was overstated by $26,189,
     FFR No. 8 was overstated by $1,747, and FFR No. 9 was overstated by
     $4,801; the FFRs submitted for the remaining three cooperative
     agreements were generally accurate.




                                     20

      •	 Progress Report Nos. 2 and 3 were submitted 223 and 39 days late,
         respectively, for Cooperative Agreement No. 2009-SQ-B9-K102. For
         the other three cooperative agreements, the Progress Reports from
         the last 2 years were submitted in a timely manner.

      •	 For Cooperative Agreement No. 2007-RG-CX-K003, the final FFR was
         submitted, the final Progress Report was submitted, and the final
         drawdowns were in compliance with terms and conditions required by
         the OJP Financial Guide.

Views of Responsible Officials

       We discussed the results of our review with officials at the NLETS
throughout the audit and at a formal exit conference, and we have included
their comments as appropriate.

Recommendations

        We recommend that OJP:

1.	     Ensure that the NLETS implements policies in order to accurately
        drawdown funds as needed.

2.	     Remedy the $10,381 in questioned costs related to the two double-
        counted transactions.

3.	     Ensure that the NLETS implements travel policies that adhere to OJP
        Financial Guide rules.

4.	     Remedy the $80,207 in questioned costs related to unallowable payroll
        expenditures.

5.	     Ensure that the NLETS implements procedures to ensure compliance
        with the 10-percent rule.

6.	     Ensure that the NLETS adopts policies in order to document and
        maintain information concerning the need to award contracts without
        open and free competition.

7.	     Ensure that the NLETS adopts policies to ensure that contractors are
        accurately classified in its contractual agreements.

8.	     Ensure that the NLETS implements procedures to ensure that the
        information submitted in the FFRs is accurate.


                                       21

9.   Ensure that the NLETS implements procedures to ensure that the
     Progress Reports are submitted in a timely manner.




                                  22

                                                              APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of the audit was to determine whether reimbursements
claimed for costs under the cooperative agreements were allowable,
reasonable, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the cooperative agreements, and to determine
program performance and accomplishments. The objective of the audit was
to review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) cooperative agreement expenditures,
including personnel and indirect costs; (4) budget management and control;
(5) matching; (6) property management; (7) program income; (8) financial
and Progress Reports; (9) cooperative agreement requirements;
(10) program performance and accomplishments; and (11) monitoring of
subgrantees and contractors. We determined that indirect costs, matching
costs, program income, and subgrantees were not applicable to this audit.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
date of Cooperative Agreement No. 2007-RG-CX-K003 on September 12,
2007 through April 30, 2012. This was an audit of the NIJ Cooperative
Agreement Nos. 2007-RG-CX-K003, 2009-DE-BX-K014, 2009-IJ-CX-K015,
and 2009-SQ-B9-K102 awarded to the National Law Enforcement
Telecommunication System (NLETS).

      We tested compliance with what we consider to be the most important
conditions of the cooperative agreements. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial Guide
and the award documents.

     In conducting our audit, we performed sample testing in three areas,
which were cooperative agreements expenditures (including personnel
expenditures), Financial Reports, and Progress Reports. In this effort, we
employed a judgmental sampling design to obtain broad exposure to
numerous facets of the awards reviewed, such as dollar amounts,
expenditure category, or risk. However, this non-statistical sample design




                                      23

does not allow a projection of the test results for all cooperative agreements
expenditures or internal controls and procedures.

      In addition, we evaluated internal control procedures, performance to
cooperative agreement objectives, cooperative agreement drawdowns,
property management, and evaluated the recipient’s monitoring of
contractors. However, we did not test the reliability of the financial
management system as a whole and reliance on computer based data was
not significant to our objective.




                                      24

                                                                      APPENDIX II

           SCHEDULE OF DOLLAR-RELATED FINDINGS6


QUESTIONED COSTS:                                                 AMOUNT         PAGE

  Unallowable Direct Cost Expenditures                            $ 10,381         11

  Unallowable Payroll Expenditures                                   80,207        13

TOTAL QUESTIONED COSTS:                                           $ 90,588

TOTAL DOLLAR-RELATED FINDINGS                                     $ 90,588




   6
      Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.


                                           25

                                                                                                    APPENDIX III

NATIONAL LAW ENFORCEMENT TELECOMMUNICATIONS SYSTEM’S
            RESPONSE TO THE DRAFT REPORT





                   Nlets Responses to Conclusions and Recommendations
                          in Draft Audit Report dated May 28, 2013


        Nlet s has read, digested and discussed t he findin gs and recommendations contained In the OIG
        Draft Audit report covering Award Numbers 2007-RG-CX-K003 (N lets acronym LOG IC), 2009-DE­
        BX-K014 (NCIEN), 2009-IJ-CX-KOlS (GeoSOAPS) and 2009-SQ-B9-KI02 (EPORT). Following is our
        response to the conclusions and recommendation listed in the report.

        Nlets is grateful for the federa l funding of t he projects approved in t hese awards. Our st ated
        vision is '1'0 be the premier provider of secure information services that will enable a totally
        standardized, integrated, international justice and public sa fety syst em. Acting primarily as a
        network and information provider, Nlets will serve every stratum of the Just ice and public
        safety communities." Everyth ing Nlet s does is done t o f urt her t he accomplishment of that
        vision. Each of the fou r grant s covered in the audit have advanced information sharing
        capabilities in t he law enforcement and public sa fety communit ies. We believe that the Grant
        Award managers associated with these grants would agree with us.

        The audit experience Is a demanding one, but all Nlets staff associated with t hese grant awards
        learned from the audit. Nlets agrees in principle with all the conclusions detailed in t he draft
        audit. Our comments on each of these conclusions follow. We will be better compliant in t he
        fu t ure from what we have learned through this audit process.

        From an overall perspective, the audit revealed two sets of conditions at Nlets and somewhat
        different compliance result s associated wit h each. Cooperative Agreement No 2007-RG-CX­
        K003, which Nlets calls LOG IC (Live Operational Geospatial Information Capability), was
        awarded in 2007. At that time, Nlets was in the process of establishing greater financial
        reporting capabilities, including the hiring of a new Director of Finance and Administration and
        converting t he accounting system from Quickbooks to an ERP application, Eplcor Enterprise.
        Th e system conversion process was subst ant ial in t ime and effort and went live on November 1,
        2008. As the audit results reveal, there were some missteps along the way for the LOGIC grant
        that was active during the time frame before process improvements wen t into effect. None of
        the current accounting staff was employed with Nlets during thi s time frame. For thi s award,
        then, Nlets staff can on ly observe the same documentation that the grant auditors staff saw.

        The other three grants, NCIEN, GeoSOAPS and EPORT, originated in 2009. The audit results for
        these grant s reflect that Nlets had at that point fully implemented the policies and routines that
        were not fully operational for the earner grant. By the end of 2009, Nlets' accounting
        department was fully staffed wit h the sa me positions that exist today.

       Of the nine pOints that were noted in t he audit rep ort, five (Nos. 1, 2, 4, 5 and 8) were specific
       to th e l OGIC grant, before all of Nlets' current systems, processes and procedures were in
       place. The other four were errors on Nlets' part that have been corrected since the discussions

                                                   Page 1 of 6




                                                       26

with the grant auditors about proper interpretation of the grants' specific requirements. On a
number of occasions relative to point 3 on not following OlP travel guideli nes, Nlets proceeded
in ways t hat made sense from a business perspective, Le, th ey saved ti me and mon ey, but
which did not comp ly with grant accounting protocol. We have lea rn ed that t he grant rul es are
to be followed specifica lly, regard less of business considerations.

Following are specific responses to each of the nine paints raised in the draft au dit repo rt. If
any further clarification is required, please let us know.

   1) Cumulative drawdowns exceeded overall expenditures by $2,776 for Cooperative
      Agreement No. 2007-RG-CX-K003; cumulative expenditures exceeded drawdowns for
      all the remaining awards.

       Nlets response - Agree
          • This was th e lOGIC grant. Th e reason that drawdowns exceeded record ed
               overall expenditures was the discovery of $10,381 of duplicated expend itures
               th at occurred when Nlets cut over from Quickbooks to Epicor. More detail abo ut
               this duplication fl ows out of th e discussion of the secon d pOint that immediately
               follows t his answer. There was no overdraw apparent at the time it was t aken.
          • The report recommendation about this point is t o ensure that Nlets implem ents
               policies in order to accurately draw down fun ds as needed. Nlet s' issue in this
               case was not a policy issue, but sim ply an error peculiar to t he accounting system
               transition that was bei ng implemented at the ti me of this error. The error
               occurred because one invoice from AT&T Datacomm was entered into
               Quickbooks, then mistakenly journal entried into the Epico r job cost syst em . The
               control f eatures in Epicor, along with internal accounting controls that are part
               of Nlets' daily routines, prevent t his from happening again . In addition,
               drawdowns have, for the last severa l years, been done on a monthly basis based
               on expenditu res incurred in the prior month. Th ese reports are generated from
              the job cost system and re viewed in detail by two accounting personnel before
              the draw is requested.
          • As noted in the language in poi nt 1, in every case, in cl uding lOG IC, Nlets
              overspent the amount of the award. Prior management decided t o quit
               recording costs against a grant after incu rred cost s exceeded the award amount.
              There were additional LOGIC costs never recorded in the grant, but absorbed
              into Nlets expense. l OG IC stopped recording costs at $799,566 (reduced by this
              audit to $789,185) against the $79 1,961 awa rd amount. Nlets now continues to
              record costs against gra nts even after reimbursement against t he full award
              amount is complete, in order to fully understand the t otal cost of the grants. On
              th e two audited grants that are now closed (No. 2009-DE-BX-K014 and No. 2009-
              SQ-B9-K102j, Nlets has overspent the awa rds by a total of over $56,000. Also,
              Nlets now contributes to implementation of these grant capa bilities with a
              program that has devoted over $1,000,000 t o state application awards.


                                          Page 2 of 6




                                              27

2) Remedy the $10,381 In questioned costs related to two unallowable transactions.

   Nlets response - Agree, but would note that the nature of the transaction ~
   allowable. The error is in the duplication of recording.
       • This again is related to the lOGIC grant. It results from one invoice from AT&T
          Datacomm, split into two pieces, one for soft ware and another for the software
          maintenance. It was recorded th rough the Accounts Payable module in
          Quickbooks, then mistakenly entered by journal entry into the job cost system in
          Eplcor. These were allowable transactions. The error was that allowable
          transactions were entered twice.
       • The report recommends that Nlets remedy this inadvertent duplication. Point
          number one already provides the remedy. The gra nt award was $791,961. Nlets
          recorded $799,566 in costs against t his award. When we remove the $10,381 In
          duplicated costs from what was recorded, we are left with $789,185 in allowable
          expenditures. Having now removed the duplication, Nlets overdrew the gra nt by
          the $2,776 noted in poi nt 1.

3) The Nlets did not follow the federal travel policy as required In the OJP Financial Guide
   on 11 occasions.

   Niets response - Agree
      • We agree that Nlets did not ad here to policy. In the introduction to Nlet s
           response to the audit, we talked about making some appropriate business
           decisions that did not technically comply with grant guidelines. On most of the 7
           occasions related to lodging rates (th e other 4 relate t o Meals & Incidental
           Expenses), Nlets personnel attended conferences related to the advancement of
          grant objectives. These conferences were held at out-of-state hotels. Cost
           efficiency dictated that those personnel attending the conferences stay at the
          conference hotel t o avoid th e cost of renting ca rs and wasting the compensable
          con tractu r time it would take t o dri ve to/from a hotel that complied with federal
          travel policy guidelines. It was Nlets' belief that the decisions to stay at the
          conference hotels were app ropriate as stewards of t he federa l award dollars.
           Nlets discovered th rough th e audit process, th ough, th at we should abide
          specifically by the OJP Financial Gu ide, and we will do so in all future t ravel
          reim bursements.
      • Nlets made the same error on each of the four cases of non-compliance with OJP
          policy regarding reimbursement of Meals & Incidental Expenses. Guidelines ca ll
          for 75% reim bursement on all travel days. On each of the four noted occasions,
          Niets paid 100% of the authorized per diem allowance on travel days. All
          appropriate operational and accounting staff have been notified of the need to
          adhere to th is policy.



                                       Page 3 of 6




                                          28

4) Hourly rates charged to the cooperative agreements for payroll exceeded the rates in
   which the Nlets employees are actually paid resulting in questioned costs totaling
   $80,207.

   Nlets response - Agree, with two limitations. First, the conclusion applies to a single
   cooperative agreement, not all of them. Award No. 2007-RG-CX-K003 (LOGIC) was
   already closed out when Nlets discovered the issue and therefore not readily
   correctible. The other three audited grants, along with two more active grant s that
   were not included in the audit, were all corrected before the grant audit was requested.
   Second, while we agree with the Idea that Nlets charges exceeded the charges
   associated with actual rates, the amount in question is actually $33,979 as detailed
   below.
       • Nlets' prior Director of Finance believed it was proper, after a number of
          discussions with federal personnel associated with the grant, to record staff time
          charges to the grant at an average rate. This idea was consistent with the
          detailed budget approved with the award of the grant. The rates used were
          loaded with t he cost of frin ge benefits. Nlets also inappropriately issued
          separate charges for fringe benefits at year end. After the issue arose during the
          2010 financial audit, Nlets corrected all active grants to include actual rates for
          each hour of Nlets personnel activity. These actual hours are Individually and
          accurately tracked into the Epicor job cost system directly from our time-keeping
          system. The corrections were made, for both staff time and benefits. lOGIC was
          already closed out by then and did not appear to be available for correction.
       • Nlets has recalculated the actual lOGIC payroll, applying actual rates paid for all
          the personnel hours recorded. The costs reported in the audit for lOGIC were
          $80,207 for payroll and $24,866 for fringe benefits. The actual numbers should
          have been $54,270 for actual wages paid and $16,824 for associated fringe
          benefits. The difference between reimbursements paid and actual costs is
          therefore $33,979.

5) The Nlets did not adhere to the 10 percent rule for Cooperative Agreement No. 2007-
   RG-CX-K003; the Nlets was in compliance with the rule for all the other remaining
   awards;

   Nlets response - Agree
      • Again, the issue exists with LOGIC only and is related to the transition time for
           personnel and the new accounting system.
      • The recommendation is that Nlets impl ements poliCies to ensu re compliance
           with the 10 percent rute. Nlets believes that the fact that the three subsequent
           grants comp ly with the rule demonstrates that Nlet s already has the necessary
           policies and procedures in place to ensure future compliance.




                                      Page 4 of 6




                                         29

6) Documentation showing the need to award contracts without open and free
   competition was not maintained.

   Nlets response - Agree
          •   Beca use the audited activity relates to grants that investigate and develop
              capabllities that were not in existence at the time of the awa rds, there is not a
              readily available competitive pool of usefu l ta lent. Nlets is engaged in activity
              that builds on prior successes and finds efficiency in furtherin g new capabilities
              with personnel who al read y know all that it t ook to bu ild those new capabilities.
              Hi ring new contracto rs wou ld necessit ate a lengthy learning curve to bring them
              up to the knowledge level of current project ma nagers.
       •      Bonnie Locke, Nlets Director of Bu siness Development (and Nlets manage r of
              grant activity), discussed the ongoing use of this experienced ta lent with NIJ
              Program Managers regu larly along the process. Nevertheless, Nlets agrees that
              we did not comply with requirements by documenting these decisions and
              conversat ions in t he proper way. Discussions w ith t hese federal gra nt managers
              subsequent to the audit have specifica lly addressed this issue, and Nlets will not
              have undocumented use of sole source cont ractors In the future.

7) Contractors were Improperly classified as consultants in the contractual agreements.

   Nlets response - Agree that the contracts were improperly titled
      • Nlets believes th e point is better stated by saying t hat contractor agreements
           were improperly tit led consultant agreements. Nlets used an existing document
           entitled "Consultant Agreement" to retain the contractors who served as day-to·
           day project managers for the steps involved in accomplish ing th e goals of the
           grants. The title of the documents did not fit their role. They never were
           consu ltant s and the content of the agreements, including fairly specific
          Statements of Work, accurately described their contracti ng activities. Nlets will
          title any fu ture such agreement as a "Contractor Agreement".

8) For Cooperative Agreement No. 2007-RG-CX-K003, we found that ail of the FFRs
   submitted in the last 4 quarters were inaccurate. FFR No. 6 was overstated by
   $11,700, FFR No.7 was overstated by $26,189, FFR No. 8 was overstated by $1,747
   and FFR NO.9 was overstated by $4,801; the FFRs submitted for the remaining three
   cooperative agreements w ere generally accurate.

   Nlets response - Agree
      •       Once again, the issue here is with the l OG IC grant. Current Nlets st aff reviewed
              the four FFRs and is unable to reconcile. While the four are overstated, the tota l
              ultimately claimed was appropriate to the grant amount, with th e exception of
              the errors discussed In points 2 an d 4. It was noted that the other th ree gra nts

                                          Page 5 of6




                                              30

                were in compliance. Again, Nlets points to the reporting accuracy of the three
                su bsequent grants as evidence that we already have proper policies and
                procedures in place to ensure reporting accuracy.

    9) Progress Report Nos. 2 and 3 were submitted 223 and 39 days late respectively for
       Cooperative Agreement No. 2009-SQ-B9-102; for the other three cooperative
       agreements, the Progress Reports from the last two years were submitted in a timely
       manner.

        Nlets response - Agree
            •   The Nlets contracted grant manager associated with the administration of this
                grant left Nlets in 2011; this appears to be simply a mista ke on Nlets part. From
                the memory of others associated with EPORT, there we re online reporting
                problems where the GMS system would not allow updates, saying the grant was
                "unavailable". Nevertheless, Nlets did not act in a timely way to resolve the
                problem. The fact that all subseq uent reports for this grant and for the other
                two 2009 grants included in the audit have been timely demonstrates that Nlets
                has policies and procedures that ensure compliance.
            •   Nlets also put into place in 2011 a project management tool, AtTask, that
                includes templates for required grant activities. All personnel with tasks
                associated with grant reporting receive proactive email reminders from the
                system, notifying them of upcoming reporting deadlines.



Submitted by:

(4d1Z/<:ihr----
KeIth R. Meyers, CPA
Nlets Director of Finance & Ad ministration




                                              Page Gof6




                                                 31

                                                                                                   APPENDIX IV

OFFICE OF JUSTICE PROGRAMS’ RESPONSE TO THE DRAFT REPORT

                                                          U.S. Department of Justice

                                                          Office of Justice Programs

                                                         Office ofAudit, Assessment, and Management



                                                         W<uirlnglon. D.C. ](JH I


            JUN '} 6 20 t3




        MEMORA NDUM TO:              David M. Shecrcn
                                     Regional Audit Manager
                                     Denver Regional Audit Office
                                     OfIicc ofthc lnspcctor Gcncral

        FROM:                        M,,,,,,,,n   A.'knn'be,4£?~a..t1~
                                      DIrector              [)          ~-.-J           ~~
                                                                                       ..
        SUBJECT:                     Response to the Draft Audit Report, Audit ofthe Office ofJustice
                                     Programs. Narional Institute of Justice Cooperative Agreements
                                     Awarded to the National Law Enforcement Telecommunications
                                     System

        This memorandum is in response 10 your correspondence, dated May 28, 20l3, transmitting the
        subject draft audit report for the National Law Enforcement Telecommunications System
        (NLETS). We coru;idcr the subject report resolved and request minen acceptance of this action
        from your office.

        'lbe draft audit report contains nine recommendations a.nd $90,588 in questioned costs. 'lbe
        following is the OtTice of Justice Programs ' (OJP) analysis of the draft audit rcport
        recommendations. For ease of review, the recommcndations are restated in bold and are
        followed by our response.

        L      We recommend that O.JP ensure that the NLETS implements policies in order to
               accurately drawdown funds as needed.

               OJP agrees with the recommendation. We will coordinate with the NLETS to obtain
               a copy of implemented policies and procedures for ensuring that Federal cash-on-hand is
               kcpt at the minimum amount needed for disbursement to be made immediately, or within
               10 days of receiving the funds; and amounts requested for reimbursement are based on
               actual disbursements.




                                                       32

2.   We recommend that O.JP remedy the $10,381 in questioned costs related to the two
     un allowable tra nsactions.

     OlP agrees with the recommendation. We will coordinate with the NLETS to remedy
     the $10,381 in questioned cost<; related to the unallowable transactions charged to
     cooperative agreement number 2007~RG -CX-K 003.

3.   We recommend that O.JP ensure that the NL ETS implements travel policies that
     adhere to OJ P Financial Guide rules.

     OIP agrees with the recommendation. We w ill coord inate with the NLETS to obtain a
     copy of implemented policies and procedures for ensuring that the NLETS' travel
     policies adhere to the OlP Financial Guide travel mles.

4.   We recommend that O.JP re medy the $80,207 in questioned costs related to
     unallowable payroll expenditures.

     OlP agrees with the recommendation. We wi ll coordinate with the NLETS to remedy the
     $80,207 in unallowable payroll expenditures charged to cooperative agreement number
     2007-RG-CX-K003.

5.   We recommend that OJ]' ensure that the NLETS implements procedures that
     comply with the 10 percent rule.

     OJP agrees with the recommendation. We wi ll coordinate with the NLETS to obtain a
     copy of implemented policies and procedures for ensuring that prior approval is obtained
     from the Federal granting agency, if cumulative changes to b udget categories exceed 10
     percent of the total award amount.

6.   Wc recommend th at OJP ensure that the NL ETS adopts policies in order to
     document and maintain information concerning th e need to award contracts
     without open and free competition.

     OIP agrees wi th the recommendation. We will coord inate with the N LETS to obtain a
     copy of implemented policies and procedures for ensuring that proper infonllation is
     maintained when contracts are awarded without open and free competition.

7.   We recommend that OJP ensure that the NLETS adopts policies to ensure that
     contractors arc accurately classified in its contractual agreements.

     OJP agrees with the recommendation. We will coordinate with the NLETS to obtain a
     copy of implemented policies and procedures for ensuring that contractors are accurately
     c\a<;sified in contractual agreemenl,>.




                                              2




                                              33

8.     We recommend t hat OJP ensure that the NLETS implements procedures to ensure
       I.bat the information submitted on the Federal Financial Reports (FFRlI) is accurate.

       OlP agrees with the recommendation. We will coordinate with the NLETS to obtain a
       copy oOmplemented policies and procedures for ensuring that future FFRs are accurately
       prepared, and reviewed and approved by management prior to submission; and the
       supporting documentation is maintained for future a uditing purposes.

9.     We recomm end that OJP ensure that the NLETS implements procedures to ensure
       that the progress r eports are submitted in a timely manner.

       OlP agrees with the recommendation. We will coordinate with the NLETS       to obtain a
       copy of implemented policies and procedures for ensuring that future progress report'> are
       timely submitted.

We appreciate the opportunity to review and comment on the draft audit report. T   fyou have any
questions or require additional information , please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Oftice of Audit, Assessment, and Management

       Gregory K. Ridgeway, Ph.D.
       Acting Director
       National Institute of Justice

       Portia Graham
       Acting Office Qirector, Office ofOpcrations
       National Institute of Justice

       Chris Tillery
       Ofti ce Director, Office of Science and Technology
       National Institute of JIL'rticc

       Charlene Hunter
       Program Analyst
       National Institute of Justice

       Richard P. Theis
       Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20130774

                                                 3




                                                 34

                                                            APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to OJP and the NLETS.
The responses are incorporated into Appendices III and IV of this final
report. The following provides the OIG analysis of the responses and
summary of actions necessary to close the report.

Recommendation Number

  1.	 Resolved. OJP concurred with our recommendation that it ensure
      the NLETS implement policies in order to accurately drawdown funds
      as needed. In its response, the NLETS also concurred with our
      recommendation and provided additional explanation regarding the
      specific nature of the drawdown concern and its relationship to
      accounting entries that are also described in our report. In our
      judgment, it is important to establish policy to ensure this type of
      error can be prevented in the future and to ensure that drawdown
      amounts are consistent with accounting records and immediate
      needs.

       This recommendation can be closed when we receive updated policies
       that implement procedures for ensuring accurate drawdowns of grant
       funds.

  2.	 Resolved. OJP concurred with our recommendation to remedy the
      $10,381 in questioned costs related to the two unallowable
      transactions. In its response, the NLETS also concurred with our
      recommendation and provided additional information regarding the
      unallowable transactions. We agree with NLETS and made
      appropriate adjustments to indicate that the nature of the transaction
      is allowable; however, it is unallowable to duplicate this charge in
      determining grant expenditures. The NLETS provides additional
      analysis of total grant expenditures and the resulting impact on
      questioned costs. We agree with this analysis, and based on the
      information provided, the questioned costs are reduced to $2,776.

       This recommendation can be closed when we receive documentation
       supporting that the remaining $2,776 in questioned costs have been
       remedied.


                                     35

3.	 Resolved. OJP concurred with our recommendation that it ensure
    the NLETS implements travel policies that adhere to OJP Financial
    Guide rules. In its response, the NLETS also concurred with our
    recommendation to implement travel policies. NLETS provided
    additional discussion describing its intent to minimize costs that
    would potentially be incurred in complying with travel regulations.
    We agree with the concept of minimizing costs and in our judgment
    sufficient policies that include obtaining granting agency approval for
    any travel that does not fully comply with the OJP Financial Guide
    may address this issue.

    This recommendation can be closed when we receive updated travel
    policies that adhere to OJP Financial Guide rules.

4.	 Resolved. OJP concurred with our recommendation to remedy the
    $80,207 in questioned costs related to unallowable payroll
    expenditures. In its response, the NLETS also concurred with our
    recommendation and provided further explanation and supplemental
    analysis of payroll records. Regarding the additional explanation, we
    were unable to ascertain any approval to deviate from using actual
    payroll expenditures in determining hourly pay rates resulting in our
    questioned costs determination. The NLETS also stated that the
    questioned costs related to unallowable payroll should have been
    $33,979, rather than $80,207. While the supplemental analysis of
    payroll records is helpful in addressing this recommendation, we will
    need to obtain and review these records to ensure the validity of the
    information.

    This recommendation can be closed when we receive all records
    related to unallowable payroll expenditures and questioned costs are
    fully remedied.

5.	 Resolved. OJP concurred with our recommendation that it ensure
    the NLETS implements procedures that comply with the 10-percent
    rule. In its response, the NLETS also concurred with our
    recommendation and provided additional explanation regarding the
    specific concern related to the 10-percent rule.

    This recommendation can be closed when we receive the policies
    implemented to ensure NLETS comply with the 10-percent rule.

6.	 Resolved. OJP concurred with our recommendation that it ensure
    the NLETS adopts policies in order to document and maintain
    information concerning the need to award contracts without open and


                                   36

    free competition. In its response, the NLETS concurred with our
    recommendation and provided additional explanation regarding the
    circumstances surrounding the awarding of contracts without full and
    open competition. In our judgment, while the NLETS explanation
    merits consideration, any waiver of the requirement to award
    contracts without full and open competition should be approved in
    advance by the granting agency.

    This recommendation can be closed when we receive updated policy
    implemented to ensure appropriate documentation is maintained to
    describe circumstances of awarding contracts without free and open
    competition.

7.	 Resolved. OJP concurred with our recommendation that it ensure
    the NLETS adopts policies to ensure that contractors are accurately
    classified in its contractual agreements. In its response, the NLETS
    concurred with our recommendation and offered further explanation
    to demonstrate the proper intent to classify all agreements as
    “contractor agreements.”

    This recommendation can be closed when we receive policy
    implemented to accurately categorize contractors in contractual
    agreements.

8.	 Resolved. OJP concurred with our recommendation that it ensure
    the NLETS implements procedures to ensure that the information
    submitted on the Federal Financial Reports (FFRs) is accurate. In its
    response, the NLETS also concurred with our recommendation and
    provided additional information indicating that this issue was isolated
    to only one of the grants reviewed.

    This recommendation can be closed when we receive policies
    implemented to ensure information on the FFRs is accurate.

9.	 Resolved. OJP concurred with our recommendation that it ensure
    the NLETS implements procedures to ensure that the progress
    reports are submitted in a timely manner. In its response, the
    NLETS concurred with our recommendation and described polices put
    in place to ensure progress reports are submitted in a timely manner.

    This recommendation can be closed when we receive the policies
    implemented to ensure progress reports are submitted in a timely
    manner.



                                   37

